                                                Department of the Interior 
                                                Office of Inspector General 
                                                                            
                                                                                  
                        AUDIT REPORT 
                                                                                  
 
                                             
                                                 
                                                 
                                                 
                                             
                            U.S. Fish and Wildlife Service 
                    Wildlife and Sport Fish Restoration Program 
                      Grants Awarded to the State of Louisiana,  
                     Department of Wildlife and Fisheries,  
                   From July 1, 2004, Through June 30, 2006 

                                                 
                                                     
              
 
 
 
 
 
                                                                                  
    Report No. R­GR­FWS­0017­2007                                  April 2008 
                United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                             12030 Sunrise Valley Drive, Suite 230
                                     Reston, VA 20191

                                                                                   April 29, 2008

                                      AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Christina M. Bruner
           Director of External Audits

Subject:   Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
           Grants Awarded to the State of Louisiana, Department of Wildlife and Fisheries,
           From July 1, 2004, Through June 30, 2006 (No. R-GR-FWS-0017-2007)

        This report presents the results of our audit of costs incurred by the State of Louisiana
(State), Department of Wildlife and Fisheries (Department), under grants awarded by the U.S.
Fish and Wildlife Service (FWS). FWS provided the grants to the State under the Wildlife and
Sport Fish Restoration Program (the Program). The audit included claims totaling approximately
$25.6 million on 60 grants that were open during the Department’s State fiscal years (SFYs)
ended June 30, 2005 and June 30, 2006 (see Appendix 1). The audit also covered Department
compliance with applicable laws, regulations, and FWS guidelines, including those related to the
collection and use of hunting and fishing license revenues and the reporting of program income.

       We found that the Department complied with applicable grant accounting and regulatory
requirements. We did not identify any reportable conditions. We therefore do not require a
response to this audit report.

      If you have any questions regarding this report, please contact the audit team leader,
Lawrence Kopas, or me at 703-487-5345.

cc:   Regional Director, Region 4, U.S. Fish and Wildlife Service
                                               Introduction
Background

The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts)1 established the Wildlife and Sport Fish Restoration Program. Under the Program,
FWS provides grants to States to restore, conserve, manage, and enhance their sport fish and
wildlife resources. The Acts and federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs incurred under the
grants. The Acts also require that hunting and fishing license revenues be used only for the
administration of the State’s fish and game agency. Finally, federal regulations and FWS
guidance require States to account for any income they earn using grant funds.

Objectives

Our audit objectives were to determine if the Department:

      •    claimed the costs incurred under the Program grants in accordance with the Acts and
           related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      •    reported and used program income in accordance with federal regulations.

Scope

Audit work included claims totaling approximately $25.6 million on the 60 grants that were
open during SFYs ended June 30, 2005 and June 30, 2006 (see Appendix 1). We performed our
audit at Department headquarters in Baton Rouge, Louisiana, and visited two wildlife
management areas and one fish hatchery (see Appendix 2). We performed this audit to
supplement, not replace, the audits required by the Single Audit Act Amendment of 1996 and by
Office of Management and Budget Circular A-133.

Methodology

We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures
as necessary under the circumstances. We believe that the evidence obtained from our tests and
1
    16 U.S.C. §§ 669 and 777, as amended, respectively.

                                                          2
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Department;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Department used hunting and fishing license revenues solely for
       administration of the Department; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to
the total population of recorded transactions or evaluate the economy, efficiency, or effectiveness
of Department operations.

Prior Audit Coverage

On December 22, 2003, we issued “Report on Costs Claimed by the State of Louisiana,
Department of Wildlife and Fisheries, under Federal Assistance Grant from the U.S. Fish and
Wildlife Service from July 1, 2000, through June 30, 2002 (No. R-GR-FWS-0023-2003).” We
followed up on all recommendations in the report and found that the Department of Interior,
Office of the Assistant Secretary for Policy, Management and Budget considered them to be
resolved and implemented.

We reviewed Louisiana’s Comprehensive Annual Financial and Single Audit Reports for SFYs
ended June 30, 2005 and June 30, 2006. The Program was not selected for compliance testing in
the single audit. The audits identified findings at six other State agencies on movable equipment
that could not be located. Our Information Technology and equipment reviews of Department
movable equipment did not identify similar findings.



                                                3
                                  Results of Audit
We found that the Department complied with applicable grant agreement provisions and
requirements of the Acts, regulations, and FWS guidance. The report contains no reportable
findings or recommendations, and no further action is necessary.




                                              4
                                                 Appendix 1
                                                   Page 1of 2


LOUISIANA DEPARTMENT OF WILDLIFE AND FISHERIES
      FINANCIAL SUMMARY OF REVIEW COVERAGE
         JULY 1, 2004 THROUGH JUNE 30, 2006


   Grant Number   Grant Amount   Claimed Costs
   F-3-51           $ 442,401        $ 326,765
   F-3-52             283,067          183,038
   F-18-35              8,000            7,996
   F-18-36              8,000            7,952
   F-23-33             78,750           56,358
   F-53-18             60,000           65,595
   F-53-19            125,000           44,561
   F-60-17          1,179,675        1,010,164
   F-60-18          1,179,675          944,052
   F-60-19            940,000        1,078,349
   F-61-18            682,500          740,744
   F-61-19            542,667          593,326
   F-64-17             35,880           35,973
   F-64-18             10,675            8,480
   F-65-17            433,333          693,501
   F-65-18            433,333          635,058
   F-69-16             36,000           36,157
   F-95-7           1,417,440        1,097,420
   F-95-8           1,064,000          964,735
   F-96-6              80,000           79,967
   F-96-7              40,000           42,850
   F-97-6             477,466          506,977
   F-97-7             569,897          588,600
   F-106-4            349,821          358,816
   F-106-5            351,104          389,115
   F-107-3             92,404          115,202
   F-107-4            104,810          108,288
   F-108-2          3,335,000          177,598
   F-110-2            194,475          193,514
   F-112-1            880,125          880,125


                        5
                                                  Appendix 1
                                                    Page 2 of 2


LOUISIANA DEPARTMENT OF WILDLIFE AND FISHERIES
      FINANCIAL SUMMARY OF REVIEW COVERAGE
         JULY 1, 2004 THROUGH JUNE 30, 2006

   Grant Number   Grant Amount    Claimed Costs
    F-117-1            240,000               0
    F-118-1            200,000               0
    F-119-1            408,000               0
    F-120-1            130,815         173,802
    F-121-1            174,000               0
    F-122-1             82,189               0
    F-123-1            194,577          87,308
    F-124-1            128,341         117,788
    F-124-2            185,884         138,745
    F-125-1            393,600               0
    F-126-1            285,000               0
    F-127-B-1           36,530               0
    F-128-B-1          228,332               0
    F-129-B-1          151,125               0
    F-130-DR-1          55,409          53,428
    F-130-DR-2          55,827          51,725
    F-131-R-1          108,552          20,776
    F-132-DB-1         326,667               0
    F-133-DB-1         332,750               0
    F-134-DB-1         150,432               0
    F-135-DB-1         200,000               0
    FW-3-33            132,000         163,461
    FW-3-34            132,000         165,217
    W-1-31           1,175,337       1,362,301
    W-1-32           1,240,260       1,259,586
    W-10-59             50,000          53,518
    W-10-60             50,000          63,566
    W-55-19          3,505,250       5,014,517
    W-55-20          3,669,000       4,802,447
    W-66-2             241,909          52,563
    TOTALS         $29,699,284     $25,552,024


                        6
                                                 Appendix 2



LOUISIANA DEPARTMENT OF WILDLIFE AND FISHERIES
                   SITES VISITED


                   Headquarters

                    Baton Rouge


            Wildlife Management Areas

         Red River Wildlife Management Area
         Sherburne Wildlife Management Area


                   Fish Hatchery

            Booker Fowler Fish Hatchery




                      7
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
